March 5, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Review of Pension Costs Claimed for the Medicare Part B Segment by
                HealthNow New York Inc. for Fiscal Years 1995 Through 2006
                (A-07-11-00364)


Attached, for your information, is an advance copy of our final report on the pension costs
claimed for the Medicare Part B segment by HealthNow New York Inc. (HealthNow) for fiscal
years 1995 through 2006. We will issue this report to HealthNow within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-00364.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
March 7, 2012                                                      601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
Report Number: A-07-11-00364

Ms. Suzanne M. Gannon
Executive Director and Chief Financial Officer
MedUS Services, LLC
HealthNow New York Inc.
257 West Genesee Street
Buffalo, NY 14202

Dear Ms. Gannon:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for the Medicare Part B
Segment by HealthNow New York Inc. for Fiscal Years 1995 Through 2006. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00364
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Suzanne M. Gannon


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director and Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




           REVIEW OF
 PENSION COSTS CLAIMED FOR THE
    MEDICARE PART B SEGMENT
BY HEALTHNOW NEW YORK INC. FOR
 FISCAL YEARS 1995 THROUGH 2006




                        Daniel R. Levinson
                         Inspector General

                           March 2012
                          A-07-11-00364
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

During our audit period (Federal fiscal years (FY) 1995 through 2006), HealthNow New York
Inc. (HealthNow) administered Medicare Part B and Durable Medical Equipment Regional
Carrier operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS).

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that HealthNow claimed for
Medicare reimbursement for FYs 1995 through 2006.

SUMMARY OF FINDING

HealthNow claimed $3,899,459 of unallowable pension costs on its Final Administrative Cost
Proposals (FACP) for FYs 1995 through 2006. This overclaim occurred primarily because
HealthNow did not calculate the pension expense reported on its FACPs using a CAS-based
methodology prior to 2005. Before FY 2005, HealthNow used several different methodologies
to calculate its pension expense. None of these methodologies complied with the provisions of
CAS 412 and 413. In addition, although the methodology HealthNow used for FYs 2005 and
2006 complied with the provisions of CAS 412 and 413, the amounts HealthNow calculated for
these two FYs differed from the amounts we calculated. Specifically, on its FACPs for FYs
1995 through 2006 HealthNow claimed pension costs of $9,177,687 for Medicare
reimbursement. We determined that the allowable Medicare CAS-based pension costs for that
period were $5,278,228.

RECOMMENDATION

We recommend that HealthNow either revise its FACPs for FYs 1995 through 2006 to reduce
claimed Medicare pension costs by $3,899,459 or refund this amount to CMS.




                                                i
AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our finding. HealthNow also
stated that it will net this recommendation with other amounts due to/from the Federal
Government during its global settlement of outstanding audits.

HealthNow’s comments are included in their entirety as Appendix B.




                                             ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              HealthNow New York Inc. ................................................................................. 1
              Medicare Reimbursement of Pension Costs ....................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 1
               Objective ............................................................................................................. 1
               Scope ................................................................................................................... 1
               Methodology ....................................................................................................... 1

FINDING AND RECOMMENDATION ................................................................................ 2

          FEDERAL REQUIREMENTS ....................................................................................... 2

          UNALLOWABLE MEDICARE PART B PENSION COSTS CLAIMED................... 3

          RECOMMENDATION .................................................................................................. 5

          AUDITEE COMMENTS................................................................................................ 5

APPENDIXES

    A: ALLOWABLE MEDICARE PART B PENSION COSTS FOR
       HEALTHNOW NEW YORK INC. FOR
       FISCAL YEARS 1995 THROUGH 2006

    B: AUDITEE COMMENTS




                                                                     iii
                                            INTRODUCTION

BACKGROUND

HealthNow New York Inc.

During our audit period (Federal fiscal years (FY) 1995 through 2006), HealthNow New York
Inc. (HealthNow) administered Medicare Part B and Durable Medical Equipment Regional
Carrier (DMERC) operations under cost reimbursement contracts with the Centers for Medicare
& Medicaid Services (CMS). 1

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that HealthNow claimed for
Medicare reimbursement for FYs 1995 through 2006.

Scope

We reviewed $9,177,687 of pension costs that HealthNow claimed for reimbursement on its
Final Administrative Cost Proposals (FACP) for FYs 1995 through 2006. Achieving our
objective did not require that we review HealthNow’s overall internal control structure. We
limited our review to the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR. We performed fieldwork at HealthNow’s office in
Buffalo, New York.

Methodology

We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit. We
identified the amount of pension costs claimed for Medicare reimbursement for FYs 1995
through 2006 by reviewing HealthNow’s FACPs. We also determined the extent to which
HealthNow funded CAS-based pension costs with contributions to the pension trust fund and
accumulated prepayment credits.


1
  We are reviewing the allowability of pension costs for the DMERC segment in a separate audit (A-07-11-00367)
of HealthNow. Unless otherwise noted, all subsequent references to Medicare pension costs and reimbursements in
the body of this report relate to Medicare Part B pension costs and reimbursements.


                                                       1
We based our calculations of allowable pension costs on CMS Office of the Actuary’s (OACT)
computation of CAS-based pension costs for the Medicare Part B segment, the DMERC
Medicare segment, and the “Other” segment. OACT separately computed each segment’s
CAS-based pension costs. OACT based its computations on HealthNow’s historical practices
and on the results of our review of HealthNow’s pension segmentation requirements for the
Part B Medicare segment for the period April 1, 1995, to January 1, 2007 (A-07-11-00363), and
our review of HealthNow’s unfunded pension costs for 1995 through 2006 (A-07-11-00365).

In performing our review, we used information that HealthNow’s actuarial consulting firm
provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined HealthNow’s
accounting records, pension plan documents, annual actuarial valuation reports, and Form 5500
Series disclosure documents. 2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                FINDING AND RECOMMENDATION

HealthNow claimed $3,899,459 of unallowable pension costs on its FACPs for FYs 1995
through 2006. This overclaim occurred primarily because HealthNow did not calculate the
pension expense reported on its FACPs using a CAS-based methodology prior to 2005. Before
FY 2005, HealthNow used several different methodologies to calculate its pension expense.
None of these methodologies complied with the provisions of CAS 412 and 413. In addition,
although the methodology HealthNow used for FYs 2005 and 2006 complied with the provisions
of CAS 412 and 413, the amounts HealthNow calculated for these two FYs differed from the
amounts we calculated. Specifically, on its FACPs for FYs 1995 through 2006 HealthNow
claimed pension costs of $9,177,687 for Medicare reimbursement. We determined that the
allowable Medicare CAS-based pension costs for that period were $5,278,228.

FEDERAL REQUIREMENTS

The HealthNow Medicare contracts state: “The calculation of and accounting for pension costs
charged to this agreement/contract are governed by the Federal Acquisition Regulation and Cost
Accounting Standards 412 and 413.”

FAR 31.205-6(j) addresses allowability of pension costs by requiring that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

2
 Employee benefit plans are required to file these forms with the U.S. Department of Labor and the Internal
Revenue Service.


                                                         2
CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

UNALLOWABLE MEDICARE PART B PENSION COSTS CLAIMED

HealthNow claimed $3,899,459 of unallowable pension costs on its FACPs for FYs 1995
through 2006. During that period, HealthNow claimed pension costs of $9,177,687 for Medicare
reimbursement. We calculated allowable pension costs based on separately computed CAS-
based pension costs for the Part B Medicare segment, DMERC Medicare segment, and the
“Other” segment according to CAS 412 and 413. Based on the terms of the Medicare contracts,
the allowable Medicare CAS-based pension costs for this period were $5,278,228.

The table on the following page compares pension costs claimed on HealthNow’s FACPs to
allowable CAS-based pension costs. 3 Appendix A contains details on allowable pension costs
and contributions.




3
 The table shows only costs associated with HealthNow’s Pension Plan B. We reviewed and accepted Plan A
pension costs reported on HealthNow’s Medicare Part B FACPs.


                                                     3
                          Comparison of Claimed Pension Costs
                      To Allowable Pension Costs for Medicare Part B


                                  Claimed by       Allowable    Unallowable
                Fiscal Year       HealthNow        Per Audit    Pension Costs

                    1995             $886,181        $639,412         $246,769

                    1996              789,006         671,597          117,409

                    1997              782,987         727,923           55,064

                    1998              706,004         464,515          241,489

                    1999             1,034,997        397,639          637,358

                    2000             1,118,519        412,626          705,893

                    2001              866,391         298,242          568,149

                    2002              942,314         328,336          613,978

                    2003              635,039         307,602          327,437

                    2004              542,095         345,405          196,690

                    2005              477,070         335,530          141,540

                    2006              397,084         349,401           47,683

                   Total           $9,177,687      $5,278,228       $3,899,459

The Medicare contracts require HealthNow to calculate pension costs for Medicare
reimbursement according to CAS 412 and 413. HealthNow did not calculate the pension
expense reported on its FACPs using a CAS-based methodology prior to 2005. Before FY 2005,
HealthNow used several different methodologies to calculate its pension expense. None of these
methodologies complied with the provisions of CAS 412 and 413.

In addition, although the methodology HealthNow used for FYs 2005 and 2006 complied with
the provisions of CAS 412 and 413, the amounts HealthNow calculated for these two FYs
differed from the amounts we calculated. The differences for these two FYs occurred primarily
because HealthNow based its CAS pension cost calculations on misstated Medicare segment
assets (as discussed in our segmentation review (A-07-11-00363)).




                                               4
As a result of these errors in calculating pension costs, HealthNow claimed $3,899,459 of
unallowable Medicare pension costs.

RECOMMENDATION

We recommend that HealthNow either revise its FACPs for FYs 1995 through 2006 to reduce
claimed Medicare pension costs by $3,899,459 or refund this amount to CMS.

AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our finding. HealthNow also
stated that it will net this recommendation with other amounts due to/from the Federal
Government during its global settlement of outstanding audits.

HealthNow’s comments are included in their entirety as Appendix B.




                                               5
APPENDIXES
                                                                                                                                           Pagelof6

                                APPENDIX A: ALLOWABLE MEDICARE PART B PENSION COSTS FOR 

                                                HEALTHNOW NEW YORK INC. 

                                            FOR FISCAL YEARS 1995 THROUGH 2006 




                                                                                                                  DMERC               Total Medicare
                                                           Total         "Other "           Part B Medicare       Medicare            Part B Pension
    Date                     Description                  Company        Segment               Segment            Segment                  Costs
                                                                                                                     11
    1994        Allocable Pension Costs              2/   $4.326.493     $3 .692.302              $634 .191                  $0
                Part B Medicare LOB "' Percentage    3/                        0.79%                100.00%               0.00%
                PY Allowable Pension Cost            4/                     $29.169               $634 .191                  $0

    1995        Contributions                        5/   $4 .572.907    $3 .979.268              $593 .639                  $0
   8.00%        Disco1ll11 for Interest              6/    ($283.419)     ($246.626)              ($36.793)                  $0
Aprill . 1995   Present Value Contributions          7/   $4 .289.488    $3732.642                $556 .846                  $0
                Prepayment Credit Applied            8/            $0             $0                     $0                  $0
                Present Value of Funding             9/   $4.289.488     $3 .732.642              $556.846                   $0

Aprill . 1995   CAS Funding Target                  10/   $3 .798.844    $3 .241 .998             $556 .846                  $0
                Percent ~e Funded                   111                     100.00%                 100.00%               0.00%
                Funded Pension Cost                 12/                  $3241998                 $556 .846                  $0
                Allowable Interest                  13/                    $183.713                $31 .555                  $0
                Allocable Pension Cost              14/                  $3.425.711               $588.401                   $0
                Part B Medicare LOB "' Percentage                              0.79%                100.00%               0.00%
                PY Allowable Pension Cost                                   $27.063               $588.401                   $0
                                                                                                              I
April 1, 1995   FY AllO\vable Pension Cost          15/                     $28.116               $611.296    I              $0            $639.412

    1996        Contributions                             $3 .949.827    $3.322.332               $627.495                   $0
   7.75%        Disco1ll11 for Interest                    ($284.094)     ($238.961)              ($45.133)                  $0
Aprill . 1996   Present Value Contributions               $3 .665.733    $3 .083.371              $582.362                   $0
                Prepayment Credit Applied                   $529.895       $445.713                $84.182                   $0
                Present Value of Funding                  $4.195.628     $3 .529.084              $666 .544                  $0

Aprill . 1996   CAS Funding Target                        $4 .255.134    $3 .579.1 37             $675 .997                  $0
                Percentage Funded                                            98.60%                  98.60%               0.00%
                Funded Pension Cost                                      $3 .529.084              $666 .544                  $0
                Allowable Interest                                         $169.264                $31.969                   $0
                Allocable Pension Cost                                   $3 .698.348              $698 .513                  $0
                Part B Medicare LOB "' Percentage                              0.79%                100.00%               0.00%
                PY Allowable Pension Cost                                   $29.217               $698 .513                  $0
                                                                                                              I
April 1, 1996   FY AllO\vable Pension Cost                                  $28.140               $643.457    I              $0            $671.597

    1997        Contributions                             $3 .652. 171   $3 .1 17.638             $534 .533                  $0
   7.75%        Disco1ll11 for Interest                    ($262.685)     ($224.238)              ($38.447)                  $0
Aprill . 1997   Present Value Contributions               $3.389.486     $2.893.400               $496 .086                  $0
                Prepayment Credit Applied                           $0             $0                    $0                  $0
                Present Value of Funding                  $3.389.486     $2.893.400               $496 .086                  $0

Aprill . 1997   CAS Funding Target                        $3 .237.422    $2.731 .991              $505.431                   $0
                Percent~e  Funded                                           100.00%                  98.15%               0.00%
                Funded Pension Cost                                      $2.731 .991              $496 .086                  $0
                Allowable Interest                                         $149.975                $27.233                   $0
                Allocable Pension Cost                                   $2.881 .966              $523.319                   $0
                Part B Medicare LOB "' Percentage                              0.79%                100.00%               0.00%
                PY Allowable Pension Cost                                   $22.768               $523.319                   $0
                                                                                                              I
April 1, 1997   FY AllO\vable Pension Cost                                  $29.787               $698.136    I              $0            $727.923
                                                                                        I                                         I
                                                                                                                                        Page 20f6




                                                                                                               DMERC               Total Medicare
                                                       Total          "Other"            Part B Medicare       Medicare            Part B Pension
     Date                      Description            Company         Segment               Segment            Segment                  Costs

     1998         Contributions                        $3 ,389,930    $3 ,037,771              $352,159                   $0
    7.75%         Disco1ll11 for Interest               ($243,823)     ($218,494)              ($25,329)                  $0
January 1, 1998   Present Value Contributions          $3 ,146, 107   $2,819,277               $326 ,830                  $0
                  Prepayment Credit Applied              $228,341       $199,546                $28,795                   $0
                  Present Value of Funding             $3 ,374,448    $3 ,018,823              $355 ,625                  $0
                                                                                                           i
January 1, 1998   CAS Fundin~ Target                   $2,820,094     $2464469                 $355 ,625                $0
                  Percent ~e Funded                                      100.00%                100.00%              0.00%
                  Funded Pension Cost                                 $2,464,469               $355 ,625                $0
                  Allowable Interest                                    $124,335                $17,942                 $0
                  Allocable Pension Cost                              $2,588,804               $373 ,567                $0
                  Part B Medicare LOB "' Percentage                        0.79%                 95.35%              0.00%
                  PY Allowable Pension Cost                              $20452                $356 ,196                $0
                                                                                                           [
January 1, 1998   FY Allmvable Pension Cost                              $22,928               $441,587    [              $0            $464,515

     1999         Contributions                        $5 ,313,049    $4 ,914,739              $398 ,310                  $0
    7.75%         Disco1ll11 for Interest               ($308,888)     ($285,732)              ($23,156)                  $0
January 1, 1999   Present Value Contributions          $5 ,004, 161   $4 ,629,007              $375 ,154                  $0
                  Prepayment Credit Applied              $597,316       $533,064                $64,252                   $0
                  Present Value of Funding             $5 ,601 ,477   $5 ,162,071              $439 ,406                  $0

January 1, 1999   CAS Funding Target                   $4 ,084,899    $3 ,645,493              $439 ,406                $0
                  Percent ~e Funded                                       100.00%               100.00%              0.00%
                  Funded Pension Cost                                 $3 ,645,493              $439 ,406                $0
                  Allowable Interest                                    $170,859                $20 ,594                $0
                  Allocable Pension Cost                              $3 ,816,352              $460 ,000                $0
                  Part B Medicare LOB "' Percentage                         0.79%                81.41%              0.00%
                  PY Allowable Pension Cost                               $30, 149             $374 ,486                $0
                                                                                                           [
January 1, 1999   FY Allmvable Pension Cost                              $27,725               $369,914    [              $0            $397,639

     2000         Contributions                        $9 ,142,603    $8 ,843, 116             $299 ,487                  $0
    7.75%         Disco1ll11 for Interest               ($534,685)     ($517, 170)             ($17,515)                  $0
January 1 2000    Present Value Contributions          $8 ,607,918    $8325946                 $281 ,972                  $0
                  Prepayment Credit Applied            $1,634,113     $1 ,459,779              $174,334                   $0
                  Present Value of Funding            $10 ,242,031    $9 ,785,725              $456 ,306                  $0

January 1, 2000   CAS Funding Target                   $4 ,277, 167   $3 ,820,861              $456 ,306                $0
                  Percent ~e Funded                                       100.00%               100.00%              0.00%
                  Funded Pension Cost                                 $3 ,820,861              $456 ,306                $0
                  Allowable Interest                                    $129,614                $15,479                 $0
                  Allocable Pension Cost                              $3 ,950,475              $471 ,785                $0
                  Part B Medicare LOB "' Percentage                         0.79%                81.41%              0.00%
                  PY Allowable Pension Cost                               $31 ,209             $384 ,080                $0
                                                                                                           [
January 1, 2000   FY Allmvable Pension Cost                              $30,944               $381,682    [              $0            $412,626
                                                                                     [                                         [
                                                                                                                                                 Page30f6




                                                                                                                    DMERC                   Total Medicare
                                                       Total          "Other"             Part B Medicare           Medicare                Part B Pension
     Date                      Description            Company         Segment                Segment                Segment                      Costs
                                                                                                            I                       I
     2001         Contributions                        $8,719,704      $8 ,719,704                     $0                      $0
    7.75%         Disco1ll11 for Interest               ($530,273)      ($530,273)                     $0                      $0
January 1, 2001   Present Value Contributions          $8 ,189,431     $8 ,189,431                     $0                      $0
                  Prepayment Credit Applied            $3,908,014      $3,589,796               $318,218                       $0
                  Present Value of Funding            $12,097,445     $11 ,779,227              $318 ,218                      $0
                                                                                                                i
January 1, 2001   CAS Fundin~ Target                   $3 ,908,014     $3589796                 $318 ,218                    $0
                  Percent ~e Funded                                        100.00%               100.00%                  0.00%
                  Funded Pension Cost                                  $3 ,589,796              $318 ,218                    $0
                  Allowable Interest                                            $0                     $0                    $0
                  Allocable Pension Cost                               $3 ,589,796              $318 ,218                    $0
                  Part B Medicare LOB "' Percentage                          0.79%                72.55%                  0.46%
                  PY Allowable Pension Cost                                $28,359              $230 ,867                    $0
                                                                                                                I
January I, 2001   FY Allmvable Pension Cost                               $29,072               $269,170        I              $0                $298,242

     2002         Contributions                        $7,930,000      $7,930,000                      $0                     $0
    7.75%         Disco1ll11 for Interest               ($570,371)      ($570,371)                     $0                     $0
January 1, 2002   Present Value Contributions          $7,359,629      $7,359,629                      $0                     $0
                  Prepayment Credit Applied            $4,758,155      $4 ,025,811              $489,141               $243,203
                  Present Value of Funding            $12,117,784     $11 ,385,440              $489 ,141              $243 ,203

January 1, 2002   CAS Funding Target                   $4 ,758, 155    $4 ,025,811              $489 ,141              $243 ,203
                  Percent ~e Funded                                        100.00%               100.00%                100.00%
                  Funded Pension Cost                                  $4 ,025,811              $489 ,141              $243 ,203
                  Allowable Interest                                            $0                     $0                     $0
                  Allocable Pension Cost                               $4 ,025,811              $489 ,141              $243 ,203
                  Part B Medicare LOB "' Percentage                          0.82%                64.27%                  1.64%
                  PY Allowable Pension Cost                                $33,012              $314 ,371                $3 ,989
                                                                                                                I
January I, 2002   FY Allmvable Pension Cost                               $31,849               $293,495        I        $2,992                  $328,336

     2003         Contributions                        $6 ,850,000     $6 ,850,000                     $0                     $0
    7.75%         Disco1ll11 for Interest               ($492,691)      ($492,691)                     $0                     $0
January 1 2003    Present Value Contributions          $6357,309       $6357309                        $0                     $0
                  Prepayment Credit Applied            $4,596,186      $3,920,998               $458,820               $216,368
                  Present Value of Funding            $10 ,953,495    $10 ,278,307              $458 ,820              $216 ,368

January 1, 2003   CAS Funding Target                   $4 ,596, 186    $3 ,920,998              $458 ,820              $216 ,368
                  Percent ~e Funded                                        100.00%               100.00%                100.00%
                  Funded Pension Cost                                  $3 ,920,998              $458 ,820              $216 ,368
                  Allowable Interest                                             $0                    $0                     $0
                  Allocable Pension Cost                               $3 ,920,998              $458 ,820              $216 ,368
                  Part B Medicare LOB "' Percentage                          0.77%                56.64%                  1.36%
                  PY Allowable Pension Cost                                $30, 192             $259 ,876                $2,943
                                                                                                                I
January I, 2003   FY Allmvable Pension Cost                               $30,897               $273,500        I        $3,205                  $307,602
                                                                                      I                                                 I
                                                                                                                                             Page 4 of6




                                                                                                                     DMERC              Total Medicare
                                                            Total           "Other"            Part B Medicare       Medicare           Part B Pension
        Date                        Description            Company          Segment               Segment            Segment                 Costs

       2004            Contributions                        $6 ,750,000     $6 ,750,000                     $0                $0
      7.75%            Disco1ll11 for Interest               ($485,499)      ($485,499)                     $0                $0
  January 1, 2004      Present Value Contributions          $6 ,264,501     $6 ,264,501                     $0                $0
                       Prepayment Credit Applied            $5,375,975      $4 ,561,936              $596,090           $217,949
                       Present Value of Funding            $11,640,476     $10 ,826,437              $596 ,090          $217,949

  January 1, 2004      CAS Fundin~ Target                   $5 ,375,975     $4 561 ,936              $596 ,090          $217949
                       Percent ~e Funded                                        100.00%               100.00%            100.00%
                       Funded Pension Cost                                  $4 ,561 ,936             $596 ,090          $217,949
                       Allowable Interest                                             $0                    $0                $0
                       Allocable Pension Cost                               $4 ,561 ,936             $596 ,090          $217,949
                       Part B Medicare LOB "' Percentage                          0.67%                55.25%              1.36%
                       PY Allowable Pension Cost                                $30,565              $329 ,340            $2,964
                                                                                                                 [
  January I, 2004      FY Allmvable Pension Cost                               $30,472               $311,974    [        $2,959             $345,405

       2005            Contributions                        $6 ,600,000     $6 ,600,000                    $0                 $0
      8.00%            Disco1ll11 for Interest               ($488,889)      ($488,889)                    $0                 $0
  January 1, 2005      Present Value Contributions          $6 ,111, 111    $6 ,111, 111                   $0                 $0
                       Prepayment Credit Applied            $4,915,529      $4 ,187,696              $520,848           $206,985
                       Present Value of Funding            $11 ,026,640    $10 ,298,807              $520,848           $206,985

  January 1, 2005      CAS Funding Target                   $4 ,915,529     $4 ,187,696              $520 ,848          $206 ,985
                       Percent ~e Funded                                        100.00%               100.00%            100.00%
                       Funded Pension Cost                                  $4 ,187,696              $520 ,848          $206 ,985
                       Allowable Interest                                             $0                    $0                 $0
                       Allocable Pension Cost                               $4 ,187,696              $520,848           $206,985
                       Part B Medicare LOB "' Percentage                          0.72%                56.44%              1.11%
                       PY Allowable Pension Cost                                $30, 151             $293 ,967            $2,298
                                                                                                                 [
  January I, 2005      FY Allmvable Pension Cost                               $30,255               $302,810    [        $2,465             $335,530

       2006            Contributions                                $0                $0                    $0                $0
      8.00%            Disco1ll11 for Interest                      $0                $0                    $0                $0
  January 1 2006       Present Value Contributions                  $0                $0                    $0                $0
                       Prepayment Credit Applied            $4,544,764      $3,964,991               $471 ,123          $108,650
                       Present Value of Funding             $4,544,764      $3 ,964 ,991             $471 ,123          $108,650

  January 1, 2006      CAS Funding Target                   $4 ,544,764     $3 ,964,991              $471 ,123          $108 ,650
                       Percent ~e Funded                                        100.00%               100.00%            100.00%
                       Funded Pension Cost                                  $3 ,964,991              $471 ,123          $108 ,650
                       Allowable Interest                                             $0                    $0                 $0
                       Allocable Pension Cost                               $3 ,964 ,991             $471 ,123          $108,650
                       Part B Medicare LOB "' Percentage                          0.84%                68.72%              0.00%
                       PY Allowable Pension Cost                                $33,306              $323 ,756                 $0
                                                                                                                 [
  January I, 2006      FY Allmvable Pension Cost                               $32,517               $316,309    [         $575              $349,401
                                                                                           [                                        [

"' Line of business.
                                                                                                           Page 5 of 6


ENDNOTES

.u Durable Medical Equipment Regional Carrier.
2/ HealthNow New York Inc. (HealthNow), could not provide participant information for plan year (PY)
   1994; therefore we could not compute segmented pension costs for PY 1994. In order to compute the PY
   1994 allowable pension cost, we treated the PY 1994 Funded Costs from HealthNow's 1994 Valuation
   Report as the allocable pension cost. We assumed the PY 1994 Funded Costs to be fully assignable and
   allocated those costs to both Medicare segments based on the ratio of the segmented costs determined for
   1995. The amounts shown for the "Other" segment represent the difference between the Total Company
   and the Part Band DMERC Medicare segments.

3/ We calculated allowable pension costs for the Part B Medicare segment, DMERC Medicare segment, and
   "Other" segment based on the Medicare Part B line of business (LOB) percentage of each segment. We
   determined the Medicare Part B LOB percentages based upon information provided by HealthNow. Our
   LOB percentages are determined by segment for costs allocated to the Medicare Part B Title 18 contracts.
   For PY 1994, we applied the same LOB percentages that were computed for 1995.

4/ We computed the PY allowable pension cost as the PY allocable pension cost multiplied by the calendar
   year Medicare Part B LOB percentage.

5/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service
   Form 5500 reports. The contributions included deposits made during the plan year and accrued
   contributions deposited after the end of the plan year but within the time allowed for filing tax returns.
   We determined the contributions allocated to both Medicare segments during the pension segmentation
   review (A-07-11-00363).

6/ We subtracted the interest that was included in the contributions deposited after the beginning of the
   valuation year to discount the contributions back to their beginning-of-the-year value. For purposes of
   this Appendix, we computed the interest as the difference between the present value of contributions (at
   the valuation interest rate) and actual contribution amounts.

7/ The present value of contributions is the value of the contributions discounted from the date of deposit
   back to the first day of the PY. For purposes of this Appendix, we deemed deposits made after the end of
   the PY to have been made on the final day of the PY, consistent with the method mandated by the
   Employee Retirement Income Security Act.

8/ A prepayment credit represents the accumulated value of premature funding from the previous year( s). A
   prepayment credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting
   Standards (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future
   CAS pension costs.

9/ The present value of funding represents the present value of contributions plus prepayment credits. This
   is the amount of funding that is available to cover the CAS funding target measured at the first day of the
   PY.
                                                                                                           Page 6 of 6


10/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding
    requirement of the Federal Acquisition Regulation (FAR) 31.20S-6(j)(2)(i).

ill The percentage of costs funded is a measure of the portion of the CAS funding target that was funded
    during the PY. Because any funding in excess of the CAS funding target is accounted for as a
    prepayment in accordance with CAS 4l2.S0(c)(l) (as amended), the funded ratio may not exceed 100
    percent. We computed the percentage funded as the present value of funding divided by the CAS funding
    target. For purposes of illustration, the percentage of funding has been rounded to four decimals.

12/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

13/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same
    proportion as the interest on contributions bears to the present value of contributions. However, we
    limited the interest in accordance with FAR 31.20S-6(j)(2)(iii), which does not permit the allowable
    interest to exceed the interest that would accrue if the CAS funding target, less the prepayment credit,
    were funded in four equal installments deposited within 30 days after the end of the quarter.

14/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost
    purposes.

15/ We converted the PY allowable pension costs to a fiscal year (October 1 through September 30)
    allowable pension cost. Pursuant to CAS 412 and 413, the total Medicare Part B allowable pension costs
    charged to the Medicare contracts consisted of the Part B Medicare segment's direct pension costs plus
    the DMERC Medicare and "Other" segment pension costs attributable to indirect Medicare Part B
    segment operations.
                                    APPENDIX B: AUDITEE COMMENTS 



HeaHhNOWS'
257 We~t Gerw.se~ Street · Buffalo, New York 14202-2657




                                                                                         January 30, 2012


        Mr. Patrick J. Cogley 

        Regional Inspector General, Office of Audit Services 

        Region VII 

        601 East 12th Street 

        Room 0429 

        Kansas City, Missouri 64106

        Re: 	 Re port Number: A-07-11-00364

        Dear Mr. Cogley:


       This letter is in response to the U.S. Department of Health & Human Services, Office of Inspector
       General, Office of Audit Services' draft report entitled " REVIEW OF PENSION COSTS CLAIMED FOR
       THE MEDICARE PART B SEGMENT BY HEALTH NOW NEW YORK INC FOR THE FISCAL YEARS 1995
       THROUGH 2006" HealthNow New York Inc. (HealthNow) has reviewed the draft report in
       conjunction with our actuaries at Hooker and Holcombe, Inc. Following are comments regarding the
       specific findings.


             • 	 That HealthNow claimed $3,899,459 of unallowable pension            costs   on   its Fi nal
                 Administrative Cost Proposals for fiscal years 1995 through 2006.

       We agree with th is finding but we have no means to adj ust the FACP for that time period. We
       understand there will be a global settlement of all HealthNow's outstanding audits and we will net
       this recommendation with other amounts due to/from the Federal Government at that time.

       HealthNow would like to thank the audit team for their profeSSionalism and recognition of the
       ongoing operation during the audit. I am also grateful to Jenenne Tambke for the extension to
       respond to this draft report.

       If you have any question s please contact me at 716.887.6922 .




    ~£).-). .{ ACFl M~ .t
           CeeIY'

      S zan n M. Gannon
                                                          L   'Y7
       Exew Ive Di rector &                       dica re Operat ion 

       Me dUS Services, l lC 

       Hea lt hNow New York Inc. 


      CC: 	 Carmen L. Snell, Esq. 

            Christopher leardini 

            Catherine M . Campbell 

